       h\'. --·f~ 'IJ,




      ~
                                  U.S. SMALL BUSINESS ADMINISTRATION
   •                   •             OFFICE OF INSPECTOR GENERAL
   ;r 10. 19U    «."                      Washington, D.C. 20416
        'vISTI\~




                                                                AUDIT REPORT
                                                        Issue Date: September 2,1999
                                                        Report Number: 9·19

TO:                    Fred P. Hochberg
                       Deputy Administrator

                       Lawrence E. Barrett
                       Chief Information Officer

                       Joseph P. Loddo
                       Acting Chief Financial Officer

                       Bernard Kulik
                       Associate Administrator for
                       Disaster Assistance


FROM:                  John r:!:i:1)~JJJ
                                       Inspector General for Auditing

SUBJECT:               Audit of SBA's Information Systems Controls

        Attached is the Independent Accountant's Audit Report issued by Cotton & Co.,
CPAs. This report is part of the audit of SBA's FY 1998 Financial Statements pursuant
to the Chief Financial Officers Act of 1990. The audit report on the financial statements
will be issued separately. As a part of the audit of the financial statements, Cotton &
Co. reviewed SBA's general information systems controls to determine if they complied
with established policies and procedures. The auditors concluded that SBA's general
controls were not fully in compliance with established policies and procedures. For
example, (1) SBA had not funded and implemented an entity-wide security program,
(2) unnecessary and excessive access privileges reduced accountability and created
segregation of duties weaknesses, (3) application development and change control
procedures were not conSistently applied in systems outside OCIO's control,
(4) programmers' abilities to access operating systems could not be monitored, and
(5) security administrators and program managers needed training.


                                                        1

The report also includes two recommendations for establishing an ongoing agency-wide
information systems security program. The agency response to the draft report stated that your
offices will be establishing a committee to work on this issue.

      The findings included in this report are the conclusions of the Office of Inspector
General's Auditing Division. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing
Agency procedures for audit follow-up and resolution.

       We request that the Office of the Chief Financial Officer provide the management
decisions for the two recommendations in this report. Please provide your proposed
management decisions for the recommendations on the attached SBA Forms 1824,
Recommendation Action Sheet, within 30 days. If you disagree with a recommendation,
please provide your reasons in writing.

       This report may contain proprietary information subject to the provisions of 18 USC
1905. Do not release to the public or another agency without permission of the Office of
Inspector General.

       Should you or your staff have any questions, please contact Victor R. Ruiz, Director,
Business Development Programs Group at (202) 205-7204.

Attachments




                                               2

                     Ll)TTON & COMPANY
                                          CERTIFIED PUBLIC ACCOUNTANTS. LLP

                    .333 f\:IJRTH FIIRF\X STREET •      Sum 401          •   ALEXANDRIA. VIRGINIA 22314


Cnnfl\ (1',\ eFE                             "lie}'I,'.!"! \\' CiU.hl'lf:. CPA CFE                        ELLEN P REED CPA
H"YI\ARIJ CPA CFE                            l,;nln~I\E      l. \UCERA. (P.l.                             .\1ATTHEW H. JOHNSON   CPA




                                                    August 26, 1999


 Mr. Victor R. Ruiz
 U.S. Small Business Administration
 Office of Inspector General
 409 Third Street, SW
 Mail Code 4110
 Washington, DC 20416

 Dear Mr. Ruiz:

        Attached is the summary of results on Areas for Improvement in Computer Controls,
 Fiscal Year 1998 Financial Statement Audit. Please call if you have questions.

                                              Very truly yours,

                                              COTTON & COMPANY, LLP


                                      ,         I
                                          BY:-r-·+t~-./.:.=-...f--f--.1----


  Enclosure




                                                                    3

               AREAS FOR IMPROVEMENT IN COMPUTER CONTROLS

                 FISCAL YEAR 1998 FINANCIAL STATEMENT AUDIT

                     U.S. SMALL BUSINESS ADMINISTRATION



        Cotton & Company, LLP, is engaged in the Fiscal Year (FY) 1998 financial statement
audit of the U.S. Small Business Administration (SBA), and will issue an audit report on those
statements upon audit completion. The purpose of this report is to communicate the results of
general controls testing conducted on SBA’s information systems as part of that audit.


BACKGROUND

        General controls are the policies and procedures that apply to all or a large segment of an
entity’s information systems and help ensure their proper operation. They impact the overall
effectiveness and security of computer operations rather than specific computer applications.
General controls are intended to:

       •	      Ensure that an adequate computer security planning and management program is
               in place.

       •	      Protect data, files, and programs from unauthorized access, modification, and
               destruction.

       •	      Prevent the introduction of unauthorized changes to systems and applications
               software.

       •	      Ensure that the important duties of system and applications software development
               and maintenance, computer operations, security, and quality assurance are
               segregated.

       •	      Ensure recovery of computer processing operations in the event of a disaster or
               other unexpected interruption.

      As part of the audit of SBA’s FY 1997 financial statements, we recommended
improvements in each of those areas. Specifically, we recommended that:

1. 	   The Chief Information Officer (CIO) request (a) priority attention be given to his request
       for resources to develop and implement the agency-wide security program and (b)
       interagency agreements and contracts for data processing administered by other program
       offices are submitted for his review to ensure that security and business continuity issues
       are addressed.

2.	    As resources become available, the CIO implement an agency-wide security program and
       application development standards in accordance with Office of Management and Budget
       (OMB) Circulars A-123 and A-130.

                                                 4

3.     The CIO and Chief Financial Officer (CFO) periodically review programmer
       access privileges, maintain them at the lowest possible level, and require
       supervisory review of all emergency program fixes (actual program instructions)
       within 48 hours.

4.     The CIO develop guidance and requirements for SBA program offices to identify
       incompatible positions and ensure adequate segregation of duties.

       The CIO agreed that improvements were needed, but stated the necessary resources were
not available. During the course of the FY 1998 audit, we found that while progress had been
made, improvements were still needed. The CIO agreed and indicated that the lack of necessary
resources placed constraints on the amount of progress that could be made each year. The CIO
provided the following statement demonstrating the importance of information systems security:

              Security is going to be a big issue for the 21st century SBA. We
              expect to receive and disseminate most of our data and information
              electronically so the people we interact with are going to be very
              interested in our security from both a policy and operations
              perspective. The integrity, confidentiality, and availability of
              information will be the basis of maintaining the trust and
              confidence of our customers. New and emerging technologies
              require end-to-end security. Worldwide networks provide access
              from anywhere in the world and a new generation of highly skilled
              hackers is developing to exploit the increased use of e-commerce.
              To be a viable 21st century organization we need to give priority to
              this area.


SBA’S INFORMATION SYSTEMS ENVIRONMENT

        SBA’s financial management information systems environment is decentralized. It is
comprised of seven components that are operated and maintained by all the SBA offices as well
as external contractors. These major components are:

       •           (FOIA Deletion)       , a set of mainframe programs that process and
              maintain the accounting records and provide management reports for SBA’s loan
              programs. The Office of Chief Information Officer (OCIO) is responsible for
              developing and maintaining the (FOIA Deletion) system software and hardware,
              which is currently operated under contract with SBA by the (FOIA Deletion) at its
              (FOIA Deletion), facility. During the FY 1998 audit period, however, (FOIA
              Deletion), operated the (FOIA Deletion).

       •            (FOIA Deletion)               , a mini-computer system maintained and
              operated at each of SBA’s four Disaster Area Offices. (FOIA Deletion) is used to
              track and process disaster loan applications. After loan approval, it interfaces
              with (FOIA Deletion) to update SBA’s loan records. The Office of Disaster
              Assistance (ODA) operates (FOIA Deletion) and is responsible for developing
              and maintaining system software and hardware.
                                               5
       •            (FOIA Deletion)               , a variety of specialized programs developed
               and maintained by the Office of the Chief Financial Officer (OCFO). These
               programs perform various functions such as (1) exchanging data with SBA’s
               business partners, (2) processing and maintaining disbursement and collection
               records, and (3) interfacing with the (FOIA Deletion).

       •            (FOIA Deletion)            , a mainframe financial management system
               used by all SBA offices for administrative accounting functions. The Department
               of Treasury’s Financial Management Service (FMS), under a contract
               administered by OCFO, is responsible for software and hardware development
               and maintenance.

       •       Local and Wide-Area Networks (LANs and WANs), communications systems
               maintained and operated by all the SBA offices to (1) provide gateways to
               (FOIA Deletion), (2) allow the offices to share files and communicate
               electronically, and (3) transfer data between systems. OCIO develops and
               disseminates guidance and procedures for the operation of these systems and
               periodically monitors to ensure compliance.

       •            (FOIA Deletion)        , a client server system developed and maintained
               by OCIO that processes SBG program records and exchanges accounting
               information with (FOIA Deletion).

       •       External Contractor Systems, various systems developed, maintained, and
               operated by commercial vendors, such as (FOIA Deletion), for processing and
               exchanging data related to loan servicing, and fee collections.

       As a result of this decentralized environment, OCIO is not directly involved in the
general controls over several of the systems that record, process, and report financial and
program information.


OBJECTIVE AND METHODOLOGY

       As part of the FY 1998 financial statement audit, we reviewed controls over SBA’s
information systems following the guidance provided in the General Accounting Office’s
(GAO’s) Federal Information System Control Audit Manual (FISCAM). The objective was to
determine if SBA’s entity-wide internal control system complied with established policies and
procedures in the following areas:

       •       Entity-wide security program planning and management to provide a
               framework and continuing cycle of activity for managing risk, developing
               security policies, assigning responsibilities, and monitoring the adequacy of
               computer-related controls.

       •       Access controls to limit or detect access to computer resources (data, program,
               equipment, and facilities), thereby protecting these resources against unauthorized
               modification, loss, and disclosure.
                                                6
       •       Application software development and program change controls to prevent
               implementation of unauthorized programs or modifications to existing programs.

       •       System software controls to limit and monitor access to powerful programs and
               sensitive files that (1) control computer hardware and (2) secure applications
               supported by the system.

       •       Segregation of duty controls to provide policies, procedures, and an
               organizational structure so that one individual cannot control key aspects of
               computer-related operations and thereby conduct unauthorized actions or gain
               unauthorized access to assets or records.

       •       Service continuity controls to ensure when unexpected events occur, critical
               operations continue without interruption or are promptly resumed, and critical and
               sensitive data are protected from destruction.


RESULTS

        SBA’s information systems general controls were not fully in compliance with
established policies and procedures. For example, SBA had not funded and implemented an
entity-wide security program, unnecessary and excessive access privileges reduced
accountability and created segregation of duties weaknesses, application development and
change control procedures were not consistently applied in systems outside OCIO control,
programmers’ ability to access operating systems could not be monitored, and security
administrators and program managers needed training. Attachment 1 provides a summary of
these results.

1. Entity-Wide Security Program Planning and Management

        A comprehensive program for security planning and management is the foundation of an
entity’s security control structure and a reflection of senior management’s commitment to
addressing security risks. OMB Circulars A-123 and A-130 require agencies to (1) periodically
assess potential risks and controls over sensitive information systems, (2) develop security plans
that include a security management structure with clearly defined responsibilities, and (3)
perform security awareness training, monitoring, and reporting. The Information Technology
Management Reform Act of 1996 (ITMRA), also known as the Clinger Cohen Act, requires
CIOs to monitor and evaluate information system performance.

        SBA has not demonstrated the senior management commitment, implemented the
policies and procedures, or established the organizational structure necessary to meet
Congressional and OMB requirements for information systems security. According to the CIO,
his office has not been given sufficient funding and staffing to implement a comprehensive
information systems security program. In addition, as discussed above, the CIO has only indirect
involvement with many of the systems used to record, process, and report financial and program
information. Responsibilities for daily information systems activities and security administration
are fragmented among all of SBA’s field and program offices, without sufficient centralized
oversight.
                                                7
       To implement a comprehensive security program, SBA needs to develop, fund, and
execute annual security program budgets that ensure the following:

       •      Periodic risk assessments, reviews of security and application controls, and
              development of security plans for key business applications.

       •      Current and comprehensive security policies and procedures.

       •      Adequately staffed security management structure with clearly defined authorities
              and responsibilities.

       •      Implementation of the security awareness training program that has been
              developed.

       •      Security monitoring and reporting.

       •      Senior management oversight program to ensure timely and effective corrective
              action.

       •      Comprehensive 5-year strategic information systems plan updated annually as
              technology and business activities change.

       Without a comprehensive security program, SBA has reduced assurance that controls are
commensurate with the risks, and that financial records are accurate, complete, and reliable.
Further, the risk that fraud or other unauthorized activities will occur and not be detected is
increased.

2. Access Controls

        OMB Circular A-130 requires agencies to (1) establish and implement effective internal
controls, and (2) establish a security administration program to safeguard assets, data, and
hardware from unauthorized activities, and assign personnel who have the necessary skills,
knowledge, and training to carry out their duties. Additionally, OMB Circular A-127 requires
agencies to establish and implement controls over data entry and transaction processing to ensure
the validity of the information. The objectives of access controls are to ensure that:

       •      Users have only the access needed to perform their duties.

       •      Access to sensitive resources such as security software programs is limited to very
              few individuals.

       •      Employees are restricted from performing incompatible functions or functions
              beyond their responsibility.

        The following table summarizes access control requirements and weaknesses related to
sensitive, financial, and mission-critical data in the (FOIA Deletion) systems.



                                                8
                           Access Control Weakness                                 (FOIA Deletions)

Users have inappropriate access to production data and software.               a      a      a         a

User passwords (FOIA Deletion).                                                a      a

Security personnel have unrestricted access to passwords.                      a      a

Security personnel do not monitor access rights and privileges.                a      a      a         a

Users are not automatically prompted to change passwords.                      a             a         a

Users have multiple user IDs.                                                  a             a

Security personnel do not have an adequate understanding of system security    a      a      a         a
features.

Security personnel do not have adequate position descriptions.                 a      a      a         a


        As a result of these weaknesses, SBA personnel, contractors, and business partners have
access to information and functions involving loan applications, financial obligations,
collections, disbursements, and write-offs that may (1) be unnecessary, (2) reduce accountability
or (3) create segregation of duties problems. This increases the risks of financial loss and misuse
of information.

        SBA needs to improve its procedures and guidance to security administrators at
headquarters and field offices for granting access and privileges within SBA’s systems.
Procedures that do exist are not consistently applied, in part because security is administered in a
decentralized manner by individual offices and the proficiency of the security administrators
varies from location to location. Further, SBA does not have standard job descriptions stating
required technical skills for security administration positions and has not established and
implemented a training program for security personnel.

        OCIO was developing a security administration training program, which will be available
for users on the intranet. In FY 1999, the OCFO entered into a contract to review the (FOIA
Deletion) security program and user profiles.

3. Application Software Development and Program Change Control

        OMB Circulars A-127 and A-130 require agencies to establish controls that ensure newly
developed systems and program changes work as intended and meet user needs. Further, OMB
Circular A-127 requires that (1) systems be certified to ensure that adequate controls are built in;
(2) systems process information completely, accurately, and reliably; and (3) reliance can be
placed on system records.

   SBA’s System Development Life Cycle and Program Change control procedures were not
consistently applied for systems outside the control of OCIO. As a result, program changes and


                                                    9
new systems have been put into production without adequate testing to ensure they work as
intended.

       For example, SBA outsourced the servicing of one-third of its disaster loan portfolio to a
contractor, (FOIA Deletion), before testing the contractor’s system. (FOIA Deletion) system was
unable to process collections in accordance with SBA requirements. As a result, it incorrectly
updated SBA’s loan accounting records. SBA, in turn, had to correct the data processed by the
contractor and reassume responsibility for processing collections.

4. System Software Controls

         OMB Circular A-130 requires limiting programmer and system personnel access to
operating systems, system utilities, and production data and software. Further, it requires that
agencies establish security controls to monitor access and use of powerful operating system
utilities.

       Access controls to system software need to be established to limit programmers’ access.
SBA programmers have access to operating system software utilities, thus making the systems
vulnerable to unauthorized changes. [

                                      (FOIA Deletion)
                                                                            ]

       SBA has not implemented controls to restrict and monitor programmer access to
operating systems and utilities. As a result, SBA cannot be assured that programmers are
performing only authorized activities.

5. Segregation of Duties

         OMB Circular A-130 requires agencies to establish separation of duty controls that allow
personnel to perform assigned duties, but prevent or minimize exposures associated with
overriding security and internal controls. To help reduce the potential for unauthorized
activities, SBA has a “Rule of Two” policy that requires two different people to sign certain
documents and approve certain types of transaction. SBA personnel, however, have privileges in
(FOIA Deletion) that weaken the “Rule of Two” for processing and approving loans, releasing
funds, and changing financial records. For instance:

       •       [                              (FOIA Deletion)
                                                                                            ]
       •       [                              (FOIA Deletion)
                                                                                            ]

        Security administrators and supervisory personnel lack understanding of the activities
that can be performed with certain privileges, and SBA has not reassessed segregation of duty
controls as software and hardware changes occurred. Additionally, SBA has not provided




                                                10
adequate training to security personnel and program office managers to enable them to determine
if segregation of duties is affected by the access privileges granted through various programs.

         The lack of adequate segregation of duties increases the potential for unauthorized loan
activities to occur and to remain undetected, which could result in financial loss to SBA.

6. Service Continuity Controls

        SBA has not implemented disaster recovery or business continuity plans to minimize
disruptions in the event of a local or national disaster. As a result, SBA cannot ensure that it will
be able to provide Congressionally mandated services to disaster victims and the small business
community.

        OMB Circular A-130 requires agencies to perform risk assessments of the impact of a
local or national disaster or significant disruption to its business operation and to develop disaster
recovery and business continuity plans to address risks and minimize the impact.

        OCIO began development of a comprehensive disaster recovery and business continuity
plan in 1998, and, according to the CIO, SBA has recently allocated funds to finish development
and testing of the plan.

        Without disaster recovery and business continuity plans, SBA could suffer significant
disruptions both locally and nationally to normal business activities, which could cause
significant hardship to natural-disaster victims. Additionally, small businesses and lenders
would be adversely affected by delays in loan processing and approval and providing guarantees.

RECOMMENDATIONS

        We recommend that the SBA Administrator establish a senior management group that, as
a minimum, includes the Associate Administrator for Disaster Assistance, Chief Financial
Officer, and Chief Information Officer. The group should be responsible for developing and
implementing an ongoing, agency-wide information systems security program.

       In addition, we recommend that this senior management group develop, fund and execute
an annual budget for an ongoing, agency-wide information systems security program that as a
minimum includes:

       •       A multi-year plan and schedule for consolidating security administration duties,
               conducting risk assessments and control reviews, and preparing security plans for
               all of SBA’s critical information systems.

       •       Annual training for all SBA employees and contractors on their information
               system security responsibilities.

       •       Policies and procedures for security monitoring and reporting for each major
               system.



                                                 11
    •        Revision of the position descriptions for personnel with security administration
             responsibilities to include those responsibilities, as well as appropriate
             performance measures in their annual performance plans.

    •        Use of OCIO approved System Development Life Cycle standards and techniques
             for all new systems, system enhancements, and program changes.

    •        Quality control measures for all test plans and results for new systems, system
             enhancements, and program changes to ensure results are documented and that the
             system works as intended, and test-support documentation is retained.

    •        Procedures to ensure OCIO review and approval of all agency contracts for
             information system services, and testing of the systems before they are placed into
             production.

    •        Procedures to limit and monitor programmers’ access to operating systems,
             system utilities, application software, and production data.

    •        Assessment of critical system functions and access controls to identify
             incompatible duties and enforce SBA’s “Rule of Two.”

    •        Completion of the agency’s disaster recovery and business continuity plans and
             local disaster recovery plans, and annual testing of major portions of the plans.

SBA MANAGEMENT COMMENTS

        Management agrees to establish a senior management group to develop solutions to
                      the audit findings. Enclosed is the entire response (Attachment 2).




                                              12
                                                                                                             Attachment 1
FY 1998 CFO AUDIT –
INFORMATION SYSTEMS CONTROLS REVIEW                                           SYSTEM

GENERAL CONTROL CATEGORIES AND                                               (FOIA Deletions)
SPECIFIC CONTROL TECHNIQUES

SECURITY PROGRAM, PLANNING AND MANAGEMENT
Risks are periodically assessed.                                             2       2          2       3        2          3
Security program is documented.                                              2       2          2       2        2          2
Security management structure is in place and responsibilities assigned.     2       2          2       2        2          2
A personnel security policy is established.                                  2       2          2       2        2          2
A security monitoring program is established.                                2       2          2       2        2          3

ACCESS CONTROLS
Information is properly classified.                                          1       2          1       1        3          3
User access and privileges are authorized.                                   2       2          2       2        2          2
Physical and logical controls prevent and detect unauthorized activities.    2       2          1       2        1          3
Apparent unauthorized activities are monitored and investigated.             3       2          2       2        1          3

APPLICATION SOFTWARE DEVELOPMENT AND CHANGE
CONTROL
Program modifications are documented, reviewed, tested, and                  1       1          4       3        4          3
approved.
Program changes are documented, reviewed, tested, and approved               1       1          4       3        4          3
before releasing to production.
Movement of programs in and out of libraries is authorized.                  1       1          4       3        4          2

SYSTEM SOFTWARE CONTROLS
Access to system software is limited.                                        2       3          2       3        3          4
System access is monitored.                                                  3       3          3       3        3          3
Changes to system are authorized and documented.                             1       2          1       2        1          2

SEGREGATION of DUTIES CONTROLS
Incompatible duties are identified.                                          2       2          2       3        4          2
Segregation of duties is enforced through access controls.                   2       2          2       3        4          2
Segregation of duties is enforced through formal operating procedures        2       2          2       3        4          2
and supervisory review.

SERVICE CONTINUITY CONTROLS
Critical data and resources for recovery and establishment of                2       2          3       2        2          2
emergency processing procedures and identified.
Procedures exist for effective backup and offsite storage of data and        1       2          2       2        2          2
application and system software.
Business contingency and continuity and disaster recovery plans with         1       3          4       2        2          3
hot-site facilities and annual testing are established.

LEGEND
1. Control in place and effective. 2. Control in place but not fully effective. 3. Control not in place. 4. Control not tested.

 1
  GAO reported that “Information is FMS’s systems is at significant risk because of serious general control weaknesses.”
(GAO/AIMD-99-10, Financial Management Service: Areas for Improvement in Computer Controls)



                                                                 13
             A'ITACHMENT 2


SMALL BUSINESS ADMINISTRATION'S RESPONSE




                    14
   DATE:        August 18, 1999
      TO:       Victor Ruiz
                Acting Director of Internal Audit

  TBRU:         Fred Hochberg, Deputy   Admill1istnttJ:;Fm
  FROM:         Larry Barrett, Chief Information Officer
                Bernard Kulik, AA for Disaster Assistance
                                                         ~-<-L,­
                Joe Loddo, Acting Chief Financial Officer   1"'t,.....
SUBJECT:        Response to FISCAM Audit on Information System Controls

         We have reviewed your Federal Information Systems Control Audit Manual (FISCAM)
 audit report dated August 9, 1999 and have worked together to develop this response to the audit.
 The SBA will use a new Information Systems Control Committee to address the issue of
 information system security. This committee will include representatives from our offices and
 will meet monthly to work on the FISCAM issues in the audit report:
      • Entity Wide Security
     • Access Controls
     • Application Software Developm~rtt and Change Control
     • System Software Controls
     • Segregation of Duties Controls
     • Service Continuity Controls.

          The Information Systems Control Committee will address these issues for the OCIO,
 ODA and OCFO to develop solutions to the audit findings and to implement the solutions. We
 invite the Office of the Inspector General to participate along with us to find workable solutions
 to the findings of the FISCAM audit. The first meeting of the committee will be on September
 2nd when we will begin work to develop a detailed plan within 90 days to address each of the
 FISCAM findings. The plan will include actions required, responsible .individuals and
 time frames for accomplishing them.

          We look forward to working together, along with the DIG, to address this important
 Issue.




                                                    15
                                  REPORT DISTRIBUTION

Recipient                                               Copies

Administrator                                            1

Deputy Administrator                                     1

Associate Deputy Administrator for
 Management & Administration                             1

Associate Administrator for Field Operations             1

Assistant Administrator
 Office of Congressional & Legislative Affairs           1

Associate Administrator                                  1
 Office of Financial Assistance

Chief Financial Officer                                  1

Chief Information Officer                                1

General Counsel                                          2

General Accounting Office                                2




                                           16
